Docket No.
Supreme Court of the United States
Paul M. Poupart
versus
State of Louisiana, et al.

PROOP OP SERVICE
I, Paul M. Poupart, have mailed a copy of this applicafor writ of certiorari to the Louisiana Supreme Court at 400
Royal Street, New Orleans, Louisiana 70130; and to the State
of Louisiana Attorney General - Mr. Jeffrey Landry at 1885
N. 3rd Street, Post Office Box

94005, Baton Rouge, Louisiana

70804-9005;. and to Clerk of Court, Honorable - Scott 3„ Harris
at 1 1st Street, NE, Washington, District of Columbia 205430001, and have done such this

9

day of the month of

the year 2021.
/

Paul M. Poupart
Parish of Iberville
State of Louisiana

25.

